           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     BENEFIT PAYMENTS MAILED
       TO POST OFFICE BOXES

      July 2009   A-06-08-18097




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      July 2, 2009                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Benefit Payments Mailed to Post Office Boxes (A-06-08-18097)


           OBJECTIVE
           Our objective was to determine the appropriateness of multiple Old-Age, Survivors and
           Disability Insurance (OASDI) and/or Supplemental Security Income (SSI) benefit
           payments mailed to the same Post Office (P.O.) Box.

           BACKGROUND

           The OASDI program, established under Title II of the Social Security Act (Act), provides
           benefits to wage earners (and their families) who retire or become disabled. The SSI
           program, established under Title XVI of the Act, provides benefits to financially needy
           individuals who are aged, blind, or disabled.

           In December 2008, about 51 million individuals received OASDI benefits, and 8 million
           individuals received SSI payments. The Social Security Administration (SSA) issued
           approximately 49 million of these payments by directly depositing funds into
                         1
           beneficiaries’ bank accounts and issued about 10 million payments via paper check.

           In April 2005, the Office of the Inspector General (OIG) issued a report on Individuals
           Receiving Benefits Under Multiple Social Security Numbers at the Same Address
           (A-01-05-25002). That review identified approximately $9.2 million in overpayments
           made to 220 beneficiaries who inappropriately received benefits under multiple Social
           Security numbers (SSN) at the same physical address. For this audit, we identified
           approximately 1.5 million beneficiaries who, in March 2008, received SSA payments
           mailed to a P.O. Box address. Through further analysis, we identified
           277,682 P.O. Boxes that were used to receive checks mailed to 2 or more
           numberholders. This audit focused on payments mailed to these 277,682 P.O. Boxes.
           See Appendix B for additional discussion of our audit Scope and Methodology.


           1
             We use the term “beneficiary” throughout this report in reference to both OASDI beneficiaries and SSI
           recipients.
Page 2 - The Commissioner


RESULTS OF REVIEW
In general, multiple benefit payments sent to the same P.O. Box appeared appropriate.
We reviewed approximately 1,300 instances where benefit payments were mailed to
the same P.O. Box and found the Box was either used (1) by an organizational
representative payee or various other organizations (such as a homeless shelter or
nursing home) 2 or (2) to receive payments for multiple entitled members of the same
family.

However, during our review, we identified two instances of potential fraud that
warranted further investigation. In these cases, SSA made approximately $111,000 in
improper payments to individuals who used multiple SSNs to obtain benefits to which
they were not entitled. We referred both cases to our Office of Investigations and
provided pertinent payment record information to SSA’s Office of Operations.

We also identified a payment computation error that allowed 47 individuals entitled to
both OASDI benefits and SSI payments to receive excess SSI payment amounts.
Further, we identified two recipients who improperly received two monthly SSI
payments as a result of field office staff keying errors. SSA made approximately
$50,000 in improper payments to these 49 individuals through December 2008. Unless
corrected, these errors will continue to result in about $31,000 in improper payments
during the next 12 months.

Beneficiaries Overpaid Due to Fraud

Through analysis of instances where SSA mailed multiple payments to the same
P.O. Box, we identified 91 cases where it appeared an individual received multiple SSA
payments in the same P.O. Box using two or more SSNs. In each of these cases, two
or more numberholders using the same P.O. Box shared the same or similar names
and dates of birth. Further review indicated that in most of the 91 instances, SSA was
aware the individual had two SSNs and was entitled to receive OASDI benefits under
one SSN and SSI payments under a second SSN. 3 In other instances, it appeared twin
siblings used the same P.O. Box to receive benefit checks.

However, in two cases, individuals used multiple SSNs to receive approximately
$111,000 in OASDI and/or SSI payments to which they were not entitled. We referred
both cases to the OIG’s Office of Investigations.




2
  Beneficiaries receiving payments at these various organizations did not have the organization as their
representative payee. These beneficiaries used the organization’s P.O. Box to obtain their payments.
3
 SSA cross-referenced the OASDI and SSI payment records to each other, indicating SSA was aware the
SSNs belonged to the same individual. We did not determine why these numberholders had two SSNs or
why SSA benefits were paid to one individual under two SSNs.
Page 3 - The Commissioner


•     An individual improperly received two OASDI retirement benefit payments using two
      different SSNs. Under the first SSN, the individual worked from 1972 until filing for
      early retirement benefits in April 1995. Under the second SSN, the individual had
      no reported earnings from 1972 through 1994. However, SSA began receiving
      wage reports under the second SSN in 1995 and ending in 2007. In January 2004,
      under the second SSN, the individual filed for and began receiving retirement
      benefit payments. Through review of SSA’s records, we determined that both SSNs
      belonged to the same individual. Both SSNs were assigned under the same first
      name, date of birth and country of birth. At the time of this audit, SSA was mailing
      both checks to the same P.O. Box. In December 2008, SSA terminated the
      retirement benefits paid under the second SSN and determined the individual was
      overpaid $36,085 under that SSN. In addition, the individual appears to have been
      overpaid another $6,920 under the first SSN as the result of concealed wages.

•     An individual inappropriately received both OASDI retirement and survivors benefits
      using two SSNs. In May 1976, the individual’s ex-husband died. In 1999, she filed
      for and began receiving survivors benefits as the aged widow of the deceased
      ex-husband. However, this individual used a second SSN to conceal the fact she
      remarried in May 1977. In April 2007, she used the second SSN to obtain auxiliary
      retirement benefits under the new husband’s earnings record. Our review of SSA’s
      records indicated both SSNs belonged to the same individual. Although SSA’s
      records indicated the beneficiaries were born in different Arkansas towns, they
      shared identical first and middle names and dates of birth, and they used the same
      P.O. Box to receive both checks. Had SSA known the beneficiary was married
      when she filed for survivors benefits in 1999, the Agency would have denied the
      claim. 4 Therefore, approximately $68,000 in survivors benefits paid to this individual
      was questionable. During an interview with an OIG criminal investigator, the
      individual admitted she used two separate identities to obtain SSA benefits to which
      she was not entitled. The Office of Investigations intends to pursue a criminal
      conviction in this case.

Once the Office of Investigations referred its findings to SSA, the Office of Operations
took immediate action to terminate the improper payments and establish overpayments
against both beneficiaries.

Concurrent Beneficiaries Paid Under Two SSNs Received Excess SSI Payments

Concurrent beneficiaries are individuals who are entitled to receive both OASDI and
SSI benefits. Generally, SSA reduces or offsets an individual’s SSI payment by the
amount of OASDI benefits received, less a $20 exclusion. When OASDI benefits are
increased because of a Cost of Living Adjustment (COLA), concurrent beneficiaries
should see a corresponding decrease in their SSI payments.




4
    SSA, Program Operations Manual System RS 00207.003 How Marriage Affects Widow(er)’s Benefits.
Page 4 - The Commissioner


During our review of 91 cases where it appeared an individual received multiple SSA
payments at the same P.O. Box using two or more SSNs, we identified 47 instances
where SSA offset individuals’ SSI payments using OASDI benefit amounts that were
not adjusted to reflect COLA increases. In each case, the individuals received OASDI
benefits under one SSN and SSI payments under a different SSN. Use of understated
OASDI benefit amounts in the offset calculation resulted in excess SSI payments to
these individuals.

For example, one individual’s SSI payment was reduced to reflect receipt of $421 in
OASDI benefits. However, further review revealed the $421 amount used to calculate
the 2009 SSI payment had not been adjusted to reflect COLA increases paid to the
individual since January 2005. The SSI payment amount should have been offset by
the $489 in OASDI benefits actually paid to this individual in 2009. As a result, since
2006, SSA had issued her approximately $1,000 in SSI payments to which she was not
entitled and will continue to overpay her at least $68 every month until this error is
corrected.

An SSA representative informed us this error was due to a systems interface problem
that is known to occur when individuals receive both OASDI and SSI under more than
one SSN. Since 2006, monthly overpayments to the 47 individuals ranged between
$2 and $97. Through December 2008, these overpayments totaled about $41,000.
Left uncorrected, the payment errors on these records will continue to result in
                                                         5
approximately $31,000 in improper payments each year. We provided SSA
Operations staff with the SSNs of these 47 individuals and requested they correct the
        6
errors.

Beneficiaries Overpaid Because of Keying Errors

Our review identified two individuals who each received additional, erroneous SSI
payments under another individual’s SSN. In both cases, the second SSN was
identical except for one digit. According to an SSA Headquarters representative, these
improper payments appeared to be caused by keying errors when the individuals’ claim
information (for example SSN, address, benefit start date) were input into two separate
payment records. In both cases, the SSNs used on the erroneous payment records
belonged to other individuals who were not entitled to receive SSA payments.
Apparently, SSA staff reprocessed the claims using the beneficiary’s correct SSN.
However, it appears SSA staff did not take action to terminate the erroneous claim
initiated under the incorrect SSNs. Therefore, the claimants received SSI payments
under two different records. During our review, SSA field office staff terminated one
erroneous payment record and suspended the other. SSA overpaid these individuals
$9,160 through December 2008.

5
  The future savings is the amount SSA will save once the unearned income amount is corrected on the
beneficiaries’ SSI records. Savings were calculated by taking the 2009 Monthly Benefit Credited minus
the unearned income amount on the SSI and multiplying by 12 months.
6
    We plan to initiate a separate review to determine the full extent of this systems error.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATION
In approximately 1,300 instances reviewed where SSA sent multiple benefit payments
to the same P.O. Box, we found that the payments appeared appropriate. However,
during our review, we identified erroneous and—in two cases—potentially fraudulent
OASDI and/or SSI payments that resulted in approximately $161,000 in improper
payments and will result in about $31,000 in additional questionable payments over the
next 12 months if action is not taken to address these discrepancies. During the audit,
SSA took action to address most of our audit findings.

We recommend that SSA correct the 47 beneficiaries’ records we identified with
incorrect OASDI unearned income amounts on their SSI records.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix C.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
Act     Social Security Act
COLA    Cost of Living Adjustment
OASDI   Old-Age, Survivors and Disability Insurance
OIG     Office of the Inspector General
P.O.    Post Office
SSA     Social Security Administration
SSI     Supplemental Security Income
SSN     Social Security Number
                                                                            Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies, and procedures.

•   Reviewed an April 2005 Office of the Inspector General report, Individuals
    Receiving Benefits Under Multiple Social Security Numbers at the Same Address
    (A-01-05-25002).

•   Obtained a file of Master Beneficiary Records for all primary and auxiliary
    beneficiaries and Supplemental Security Records for all Supplemental Security
    Income recipients who received payments in March 2008 at a Post Office (P.O.) Box
    address. Further analysis of this file identified all instances in which more than
    1 benefit payment was sent to the same P.O. Box - a total of 697,305 benefit
    payments sent to 277,682 P.O. Boxes.

•   We sorted the 277,682 P.O. Box addresses in descending order based on the
    number of monthly checks SSA mailed to each. We analyzed payment records
    associated with the 50 P.O. Boxes receiving the most benefit checks that did not
    appear to belong to an organizational representative payee. We reviewed activity in
    the first 1,168 P.O. Box addresses before we identified 50 addresses that did not
    appear to belong to an organizational representative payee. 1

•   Identified 91 P.O. Boxes that received multiple checks to individuals with the same
    first name and date of birth, but different Social Security numbers (SSN). We then
    reviewed payments sent to 91 P.O. Boxes that met our criteria.

•   In addition to the 91 P.O. Boxes mentioned above, we identified P.O. Boxes that
    received multiple checks on behalf of individuals with the same date of birth, but
    different SSNs. In total, 1,527 P.O. Boxes receiving 3,077 payments met our
    criteria. We then reviewed payments sent to the 50 P.O. Boxes with the highest
    number of these occurrences. Specifically, we reviewed payments to 21
    P.O. Boxes that received 3 or more monthly payments and 29 randomly selected
    P.O. Boxes that received 2 monthly payments.



1
 We reviewed SSA’s Representative Payee System to determine whether a P.O. Box belonged to an
organizational representative payee.



                                               B-1
•     Obtained the beneficiary’s Numident record 2 for each payment reviewed to
      determine whether the SSNs belonged to the same person or different individuals,
      such as twins with similar names. We also reviewed each individual’s Master
      Beneficiary and Supplemental Security Records. In addition, in some instances
      where payments appeared questionable, we reviewed the beneficiary’s earnings
      records, and information made available to us from Lexis/Nexis and the Internet.

•     Obtained feedback from SSA regarding our findings and referred instances of
      possible fraud to the Office of the Inspector General’s Office of Investigations.

•     Quantified the amount of prior overpayments and future savings.

We conducted our audit between June 2008 and January 2009 in Dallas, Texas. The
entities audited were the field offices and program service centers under the Deputy
Commissioner for Operations, the Offices of Retirement and Survivors Insurance
Systems, Disability Systems and Applications and Supplemental Security Income
Systems under the Deputy Commissioner for Systems. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




2
    The Numident Master File houses, in SSN order, the identifying information for each numberholder.


                                                    B-2
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      June 19, 2009                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn //s//
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Benefit Payments Mailed to Post Office
           Boxes" (A-06-08-18097)--INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "BENEFIT PAYMENTS MAILED TO POST OFFICE BOXES"
(A-06-08-18097)


We reviewed the subject report and agree with the findings and the recommendation. It is our
goal to make accurate and timely payments. While we are concerned with any errors uncovered,
we were pleased to see that this audit only found 49 improper payments out of 697,305; less than
one hundredth of one percent of the cases.

Below is our response to the specific recommendation.

Recommendation 1

SSA should correct the 47 beneficiaries' records identified with incorrect Old-Age, Survivors and
Disability Insurance unearned income amounts on their Supplemental Security Income records.

Comment

We agree. We have corrected the records and assessed overpayments for the 47 cases that were
improperly paid.




                                              C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Wanda Renteria, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-18097.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
